Testimony 05-02-2002                                                                 Page 1 of 3




                              JOINT HEARING BEFORE THE

              SUBCOMMITTEE ON GOVERNMENT EFFICIENCY, FINANCIAL
                MANAGEMENT AND INTERGOVERNMENTAL RELATIONS

                                            AND

          SUBCOMMITTEE FOR TECHNOLOGY AND PROCUREMENT POLICY

                        COMMITTEE ON GOVERNMENT REFORM
                          U.S. HOUSE OF REPRESENTATIVES

                                        MAY 2, 2002




file://C:\Documents%20and%20Settings\roy\Desktop\gopdf\html\testimony_05022002.htm    5/26/2004
Testimony 05-02-2002                                                                  Page 2 of 3



                           H.R. 3844 "FEDERAL INFORMATION AND
                              SECURITY REFORM ACT OF 2002"

                               STATEMENT FOR THE RECORD



                                      DAVID C. WILLIAMS
                                    INSPECTOR GENERAL



  TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION



  Mr. Chairmen, and members of the subcommittees, I appreciate the opportunity to
  appear today to provide an Inspector General’s (IG) perspective. Government agencies
  continue to struggle with the appropriate balance between IT security and computing
  capacity, too often with an overwhelming bias toward speed and ease of operations. The
  Government Information Security Reform Act (GISRA) has served as an essential
  beacon urging agencies toward a more balanced course. During Fiscal Year 2001, the
  GISRA assessments identified substantial vulnerabilities across government that could
  threaten the security of information systems. These included:

      z   Formal security training and awareness programs for all employees were frequently
          ineffective or non-existent. In the Internal Revenue Service, for example, 70 of 100
          employees were willing to compromise their passwords, during pretext telephone
          calls by IG auditors. No matter how strong other controls may be, employees can
          often be the most vulnerable component of an agency’s IT security program.
      z   Specific performance measures were often absent, such as the effectiveness of
          efforts to reduce the impact of computer viruses.
      z   Oversight of contractors was not sufficient and many had not received the
          necessary background clearances.
      z   An unacceptable number of systems and applications critical to the agency
          missions were not security certified and accredited.
      z   System intrusion incidents were not consistently reported and shared throughout
          the government to assist agencies to proactively identify and combat hacking.
      z   Security controls often seemed to be an afterthought in IT budget and investment
          decisions, and
      z   Senior managers often assumed little responsibility for IT security within their
          programs, deferring entirely to small security offices.

  To increase the likelihood of success, agencies need to be held accountable for their
  security programs. Some agencies have appeared to view the GISRA annual reporting
  process as a pro forma exercise. To assure GISRA effectiveness, funding requests for IT
  initiatives should be contingent on the integration of adequate security controls.

      z   To assist agencies in adhering to GISRA and H.R. 3844 provisions, we offer the
          following suggestions to improve consistency in conducting and reporting



file://C:\Documents%20and%20Settings\roy\Desktop\gopdf\html\testimony_05022002.htm     5/26/2004
Testimony 05-02-2002                                                                      Page 3 of 3



          information security assessments and investigations.
      z   Certain terminology should be clarified to avoid confusion in reporting. Terms such
          as "programs", "systems", "networks", "mission-critical" and "mission essential" are
          subject to varying interpretations.
      z   Agency officials should be required to use the NIST IT security assessment
          framework.
      z   Agency and IG reporting requirements should be integrated to reduce duplication of
          effort.
      z   The OMB should provide implementation guidance at the beginning of each
          reporting year.
      z   Annual submissions should contain a conclusion section on agency compliance
          with the law and its overall information security posture.
      z   The IGs should be required to evaluate whether agencies have a process that
          incorporates information security into their Enterprise Architectures.
      z   Reporting intrusion incidents to FedCIRC should not be limited to national security
          incidents, but should also include threats to critical infrastructure, as was the case
          during the Y2K initiative, and
      z   Importantly, agencies should identify the IG or another law enforcement
          organization that will investigate intrusions and refer them for prosecution.

  In conclusion, while it is still early in the GISRA implementation process, we are
  optimistic that, if enforced, the GISRA and its successor legislation will ultimately
  succeed in strengthening information security throughout the government.

  I would be happy to answer any questions.


                                        Posted on 05/01/2002




file://C:\Documents%20and%20Settings\roy\Desktop\gopdf\html\testimony_05022002.htm         5/26/2004
